agree to cooperate and assist us or any government or law enforcement agent
or agency in investigating, collecting or pursuing any other rights (civil and
criminal) relating to any unauthorized use. In this regard, you agree to file
an appropriate police report when asked to do so. Do not use the Card or the
Convenience Checks after you have notified us, even if you find them or have
them returned to you. You are liable for all transactions that you authorize. We
may end your credit privileges and close your Account if we consider it appropriate. No Liability: You will have no liability for unauthorized use of your
Card, Convenience Checks or other Access Devices for non-ATM transactions
made over the Visa® or MasterCard® Network if the following conditions are
met: (a) you have not been grossly negligent; and (b) you have not committed,
participated in or conspired to commit any fraudulent act or scheme involving
the use of your Visa® or MasterCard® credit card account. Limited Liability:
For transactions on other networks or ATM transactions, you may be liable
for unauthorized transactions using your Card, Convenience Checks or other
Access Devices that occur before we are notified. However, your liability for
unauthorized use on networks other than Visa® or MasterCard® will not exceed
$500.00. In any case, you will not be liable for any unauthorized use after
notifying us of the loss, theft or unauthorized use of your Card, Convenience
Checks or other Access Devices.
25. Closing or Suspending Your Account. Any individual cardholder without
the consent of other cardholders may close your Account at any time by notifying us in writing or verbally as indicated in this Agreement. We may close
your Account or suspend your Card privileges or Convenience Checks at any
time without prior notice. We may also reissue a different Card or different
checks at any time. You must return the Card or the Convenience Checks to us
upon request. You agree that the Card and all Convenience Checks remain the
property of us. Each Card we issue will have an expiration date. Upon expiration of your Card, your Account will automatically terminate; or we, in our
sole discretion, may extend your Agreement and issue a new Card with a new
expiration date. If your Account is closed, expires, or your credit privileges are
terminated or suspended, you will remain responsible for paying all amounts
you owe us according to the terms of this Agreement and any amendments or
change in terms. Without limiting the foregoing, we have the right to terminate
your line of credit and to demand the return of all Cards, Convenience Checks
and other access devices if we, in our sole discretion, feel that it is insecure
for any reason whatsoever, including (but not limited to) mismanagement of
your Account, failing to safeguard any access device, creation of any credit
balances by you that may increase the risk of loss or exposure of us or failing
to cooperate with us or others with regard to any claim of unauthorized use or
any other defense to payment under applicable law.
26. Credit Information. You authorize us to investigate your credit standing
when opening or reviewing your Account. In assessing any increase to your
credit line under the provisions in this section, we may, and you authorize us to,
review your credit history, including consumer credit reports. You authorize us
to disclose information regarding your Account to credit bureaus and creditors
who inquire about your credit standing. If you think we have reported information to a credit reporting agency that is not correct, you may write to us using
the Credit Union Member Services address listed on your billing statement.
Please include your name, address, Account number, telephone number, and
a brief description of the problem and a copy of the credit reporting agency
report if you have it. We will investigate the matter. If our investigation shows
that you are right, we will contact each credit reporting agency to which we
reported the information and will request they correct the report. If we disagree
with you after our investigation, we will tell you in writing or by telephone.
27. Communications/Change of Information. We can provide cards, billing
statements and other communications to you at any mailing address or email
address shown in our records. If you change your contact information such
as any mailing address, telephone number or email address, you must notify
us immediately in writing at the address shown on your billing statement. We
may obtain mailing address and email address information from you or third
parties, and we may accept mailing address corrections from the United States
Postal Service. If more than one person is responsible for this Account, we can
provide billing statements and communications to any of you. Notice to one of
you will be considered notice to all of you. You all will remain obligated on the
Account. You agree to pay any fee(s) for incoming communications from us,
and/or outgoing communications to us, without reimbursement from us. You

authorize us, or anyone acting on our behalf, to call, email, or send a text message
using information you provide or to any number where we reasonably believe we
can contact you. These include calls to mobile, cellular, or similar devices, and
calls using automatic telephone dialing systems and/or prerecorded messages. We
may also send an email to any address where we reasonably believe we can contact
you. Some of the legal purposes for calls and messages include: suspected fraud or
identity theft; obtaining information; transactions on or servicing of your Account.
28. Telephone Monitoring and Recording. We and our agents may listen to and
record your telephone calls with us. You agree that we and our agents may do so,
whether you or we initiate the telephone call.
29. Agreement. This Agreement is the contract that applies to all transactions
on your Account, even though the Purchases, Cash Advances, credits or other
slips you sign or receive may contain different terms. You agree to all the terms
and fees contained in the “Credit Disclosure.” We have the right to change the
terms of the Agreement for any reason, and in any respect, by adding, deleting or
modifying any provision, including APRs, fees, the Minimum Payment and other
terms. We can add a new provision without regard to whether the provision deals
with a matter already addressed by this Agreement. In certain circumstances, we
are required by law to notify you of changes to the terms of this Agreement, and
in other circumstances we may not be required to do so. When required by law
to advise you that you have a legal right to reject any changes we make, we will
provide an explanation about how to do that. In some circumstances, APRs or other
aspects of your Account may change even though the terms of the Account do not
change, for example when the Prime Rate changes or a promotional period ends.
30. Assignment. We may assign your Account, any amounts you owe us, or any
of our rights and obligations under this Agreement to a third party. The assignee
will be entitled to any of our rights that we assign to that person.
31. No Waiver. The Credit Union can delay enforcing any of its rights any number
of times without losing them.			
32. Additional Benefits/Card Enhancements. The Credit Union may from time
to time offer additional services to your Account, such as travel accident insurance, purchase rewards or rebates at no additional cost to you. You understand
that the Credit Union is not obligated to continue or to offer such services and
may withdraw or change them at any time. If these benefits are withdrawn prior
to any accrued use by you, the Credit Union will have no obligation to provide
the benefit or enhancement, or any other compensation or consideration.		
33. Personal Identification Number (PIN). We will furnish you with a Personal
Identification Number (PIN). You agree to keep the PIN confidential. You also
agree you won’t write the PIN on the Visa® or MasterCard® credit card or anything
you keep with the Visa® or MasterCard® credit card. You agree that your use of the
PIN and Visa® or MasterCard® credit card in getting a Cash Advance constitutes
your signature for purposes of such a transaction.
34. Governing Law. The terms and enforcement of the Agreement and your Account shall be governed and interpreted in accordance with federal law, and to the
extent state law applies without regard to conflict-of-law principles.
35. For Information. Please call the Credit Union Member Services telephone
number on your card or billing statement if you have any questions about your
Account or this Agreement.

CREDIT CARD
AGREEMENT AND DISCLOSURE

YOUR BILLING RIGHTS
KEEP THIS NOTICE FOR FUTURE USE
This notice contains important information about your rights and our responsibilities under the Fair Credit Billing Act.			
Notify Us In Case of Errors or Questions About Your Bill.
If you think your bill is wrong, or if you need more information about a transaction on your bill, write us on a separate sheet at the address listed on your bill.
Write us as soon as possible. We must hear from you no later than sixty (60)
days after we send you the first bill on which the error or problem appeared.
You can telephone us, but doing so will not preserve your rights. In your letter,
give us the following information:					
• Your name and Account number.
• The dollar amount of the suspected error.
• Describe the error and explain, if you can, why you believe there is an error.
If you need more information, describe the item you are not sure about.
If you have authorized us to pay your credit card bill automatically from
your savings or share draft account, you can stop the payment on any amount
you think is wrong. To stop the payment, your letter must reach us three (3)
business days before the automatic payment is scheduled to occur.
Your Rights and Our Responsibilities After We Receive Your Written Notice
We must acknowledge your letter within thirty (30) days, unless we have corrected the error by then. Within ninety (90) days, we must either correct the error
or explain why we believe the bill was correct. After we receive your letter, we
cannot try to collect any amount you question, or report you as delinquent. We
can continue to bill you for the amount you question, including Finance Charges,
and we can apply any unpaid amount against your credit limit. You do not have
to pay any questioned amount; you will have to make up any missed payments
on the questioned amount. In either case, we will send you a statement of the
amount you owe and the date that it is due. If you fail to pay the amount that
we think you owe, we may report you as delinquent. However, if our explanation does not satisfy you and you write to us within ten (10) days telling us
that you still refuse to pay, we must tell anyone we report you to that you have
a question about your bill. We must tell you the name of anyone we reported
you to. We tell anyone we report to that the matter has been settled between us
when resolved. If we don’t follow these rules, we can’t collect the first $50.00
of the questioned amount, even if your bill was correct.		
Special Rule for Credit Card Purchases. If you have a problem with the quality
of property or services that you purchased with your Card, and you have tried
in good faith to correct the problem with the merchant, you may have the right
not to pay the remaining amount due on the property or services. There are two
(2) limitations on this right: (a) You must have made the Purchase in your home
state, or if not within your home state, within 100 miles of your current mailing
address; or (b) The purchase price must have been more than $50.00. These
limitations do not apply if we own or operate the merchant, or if we mailed you
the advertisement for the property or services.

11/15

G-16105

In this Agreement the words you and your mean each and all of those who receive
this Agreement. Card means a Visa® or MasterCard® credit card and any duplicates
and renewals the Credit Union issues. Account means your Visa® or MasterCard®
credit card limit or credit account with the Credit Union. We (Us) means the Credit
Union whose name appears on the application, agreement, credit card, or monthly
billing statement. In addition to this Agreement you agree that your Account will
also be subject to all rules and regulations of Visa® or MasterCard® U.S.A., Inc.
as applicable, which are incorporated herein by reference. If there is any conflict
between this Agreement and the rules and regulations of Visa® or MasterCard®
U.S.A., Inc. the rules and regulations of Visa® or MasterCard® U.S.A., Inc. will
control, as applicable.
1. Using this Card. You must sign the Card in order to use it. Your Account is to be
used only for personal, family, or household purposes. You may use the Card issued
to you to make Purchases in person, over the Internet, and by mail or telephone
from merchants and others who accept Visa® or MasterCard® credit cards and Cash
Advances, which includes the use of a Personal Identification Number (PIN) at an
Automated Teller Machine (ATM). Certain Purchases and Cash Advances require
authorization prior to completion of the transaction. In some cases, you may be
asked to provide identification. If our system is not working, we may not be able
to authorize a transaction, even though you have sufficient credit available. Also,
for security reasons, we may block the use of your Card in certain countries or
geographic areas. We will have no liability to you or others if any of these events
occur. We are not responsible for any losses if a transaction on your Account is
declined for any reason, either by us or a third party. We reserve the right to refuse
to honor any request for credit, to reduce your Credit Limit or terminate your Account at any time using our sole discretion, based on changes in the economy, the
Credit Union’s financial condition, your creditworthiness or for any other reason
not prohibited by law.
2. Authorized Users. You agree to pay all charges (Purchases and Cash Advances)
made by you or anyone who you authorize to use your Account. If you let anyone
use your Account, that person is an authorized user. You are responsible for all
use of your Account including charges by authorized users. You must tell us if
you want to stop an authorized user from using your Account. If you do, we may
close the Account and issue a new Card(s) with a different Account number. It is
your responsibility to get any Cards, checks or any other means of access to your
Account from the authorized user and destroy them or return them to us upon
request. Your obligation to pay the amount owed on your Account continues until
paid in full even though an agreement, divorce decree or other court judgment to
which we are not a party may direct someone else to pay the Account balance. If
more than one person signs the application, each is individually responsible for
all amounts owed on the Account and all are jointly responsible for all amounts
owed. This means we can enforce this Agreement against any of you individually
or all of you together. 		
3. Billing Statements. Your Account will have time periods called "billing cycles".
Each billing cycle is about one month in length. We will provide you a billing
statement each month one is required by applicable law. Your billing statement
will show an itemized list of current charges posted to your Account, your new
balance, any Finance Charges, the minimum payment due, and the payment due
date. In addition, it will show your current credit line, payments, and credits, a
summary showing your Purchases and Cash Advances, the merchant, electronic
terminal or financial institution at which transactions were made, as well as other
information concerning your Account.
4. E-Statements. If provided electronically, statements will be: (a) e-mailed to you
as an attachment; or (b) you will be sent a notice via e-mail that will direct you to
a site we maintain or cause to be maintained where you may access, review, print
and otherwise copy/download your periodic statements using procedures that we
authorize. E-mails from us will be sent to the e-mail address provided by you.
Statements and notices will be mailed to you at the most recent address you have
given the Credit Union. Notices sent to any one of you will be considered notice
to all.
5. Finance Charges. The term Finance Charge refers to the interest based on
the application of a periodic rate. Separate Finance Charges for Purchases and
Cash Advances are determined by multiplying the monthly periodic rate by the
separate "average daily balances" for Purchases and Cash Advances. Each "aver-

age daily balance" is determined by taking the beginning balance (of Purchases
or Cash Advances) of your Account each day, adding any new Purchases or Cash
Advances (whichever is applicable) and subtracting any payments or credits. The
results are the daily balances. We treat any net credit balance as a zero balance.
This gives us the daily balance for each transaction type each day in the billing
cycle. The total periodic interest charges for the billing cycle are the sum of the
daily periodic interest charges for each transaction type for each day during that
billing cycle. All the daily balances for the billing cycle are added and the total is
divided by the number of days in the billing cycle to arrive at the "average daily
balance" for the cycle. Cash Advances are always subject to Finance Charge from
the date they are posted to your Account. If any periodic interest charge is due,
we may charge you at least the minimum interest charge, plus any other finance
charges (for example, transaction fees). If a grace period applies:
(a) Purchases. A Finance Charge will be imposed on Purchases posted during
a Billing Cycle when the Previous Balance is not paid in full within the first
twenty-five (25) days of the billing cycle. A Finance Charge will also be imposed
on Purchases included in the New Balance when the New Balance is not paid in
full within twenty-five (25) days after the billing cycle Closing Date.
(b) Cash Advances. A Finance Charge will be imposed on Cash Advances from
the date the transaction is posted to your account. The Finance Charge accrued on
Cash Advances between the Closing Date of the billing cycle and the date your
Account is credited will appear on your next statement. There is no time period
within which to pay to avoid a Finance Charge.
6. Credit Line. We also call this a “credit limit”. We will assign a credit line to
your Account. Your billing statement will show the amount of your credit line as
of the date of the statement. If your Account goes overlimit, you must repay the
overlimit amount when it is billed on your monthly billing statement, or sooner
if we ask you to. We may, but are not obligated to, allow your Account to go
over its credit line. We may change or cancel your credit line without telling you
ahead of time. If we do, it will not excuse you from your obligation to pay us. We
may restrict the extent to which your credit line can be used for different types of
transactions (for example, Purchases, Balance Transfers, and/or Cash Advances)
such as by limiting the dollar amount, uses per day, or time period available for
any such transaction, and we may completely prohibit use of your credit line for
particular types of transactions. Any increase in your credit line requested by you
may require you to make a new application for our approval. In assessing your
credit line under the provisions in this Section (either at our discretion or upon
request): (a) we may, and you authorize us to, review your credit history, including consumer credit reports; (b) you authorize us to have this review made by
third parties to determine whether you meet the criteria we have set for such an
increase; and (c) this process shall not be pre-screening in the Fair Credit Reporting Act or other applicable laws or regulations based on our existing relationship
and this Agreement.
7. Balance Transfers. In our discretion, we may allow you to transfer balances
from other accounts or loans from other credit card companies, other lenders
or other balance transfers we may allow, using balance transfer checks we may
provide, or by calling us to make the transfer on your behalf. Those uses are "balance transfers". You are not authorized to transfer balances to this Account from
other accounts or loans with us. If you request a balance transfer, but do not have
enough available credit, we may transfer only a part of the requested amount.
8. Money Transfer Services. If you receive any transmittal amount from any
Money Transfer Service (MTS) provider you agree not to receive more than
$2,500 per day or more than $10,000 per month. We may increase or decrease
these limits from time to time in our sole discretion. We reserve the right to
accept or reject any MTS request in our sole discretion. Each transmittal amount
that is sent to your Card will generally be posted to your Card within two (2)
business days after we receive the transmittal amount from the Sender.
9. Types of Checks. In our discretion, we may issue you Balance Transfer checks
or Cash Advance checks. We may also call them “convenience checks”. The check
must be signed by the person whose name is printed on it. When we receive a
convenience check for payment, we may review your Account to decide whether
to pay that check. We have the right not to pay a check for any reason, including
(but not limited to) the following examples: (a) we are the payee on the check; (b)
the check is post-dated (if a post-dated check is paid, resulting in another check
being returned or not paid, we are not responsible); (c) you have used the check
after the date specified on it; or (d) you are in default (including exceeding your
credit line) or would be if we paid the check.

10. Promotions. We may make special offers for you to use your Account. If we
do, we will tell you how those offers will work and how long they will last. Any
special offer is subject to the terms of this Agreement, unless we explain otherwise
in the offer.				
11. Additional Grace Period for Purchases. In addition to your existing Grace
Period, we are adding a provision that provides for an additional interest-free period
for portions of your Purchase balance, based on timely payments in a billing cycle
in which you transition from having paid in full in the previous billing cycle to
a billing cycle in which you do not pay in full. Those portions of your Purchase
balance eligible for this Grace Period will be excluded from the balance subject
to Finance Charge.		
12. Monthly Payment. Each month you must pay at least the minimum payment
due on your billing statement by the due date specified. If you make extra payments
or larger payments, you are still required to make at least the minimum payment
each month your Account has a balance. In addition, at any time your Total New
Balance exceeds your credit line, you must immediately pay the amount over
your credit line. We may increase the minimum payment due on promotional and/
or protected balances. The minimum payment due on these balances will not be
greater than double the standard minimum payment percentage as indicated on
the credit disclosure. The minimum payments for these balances will be calculated
separately and added to the standard minimum payment calculation.
13. Payment Instructions. You agree to pay us amounts you owe in U.S. dollars.
You must use a check, money order or electronic debit drawn on a U.S. bank or
a foreign bank branch in the U.S. We will not accept cash payments through the
mail. When we receive or apply a payment, we might not restore your available
credit by that amount for up to five (5) days. For mailed payments, your billing
statement and the envelope it comes in gives you instructions about how, when and
where to make your payments. You must follow these instructions. Your payments
will not be credited to your Account before we receive it at the address we specify
for receipt of payments and in accordance with the payment instructions. If you
make a payment marked as paid in full or indicate that it is to pay all amounts you
owe us, we may accept this payment and not agree that it pays all amounts you
owe on your Account. Also, we may return this payment to you and you will still
owe us the amount of the payment or any other amounts owed on your Account.
You authorize us to collect any payment check either electronically or by draft.
Funds may be taken from your financial institution account on the same day we
receive your payment. We will keep an electronic copy of your check and securely
destroy the original check. We may allow you to make payments electronically
through our credit card web site or with our Member Service Representatives,
or by using our Autopay feature. We will provide the terms for these payment
services before you use them.
14. Payment Allocation. Unless applicable laws specifically require otherwise, we
credit payments as of the date received, if the payment is: (a) delivered by 5 p.m.
Eastern Time (ET) at the address shown on the remittance slip on the front of your
monthly statement; (b) paid with a check drawn in U.S. dollars on a U.S. financial
institution or a U.S. dollar money order; (c) sent in the return envelope with only
the remittance portion of your statement accompanying it; (d) made by electronic
means through our credit card web site by 6 p.m. ET; or (e) made in person at a
branch location by branch closing or 5 p.m. local time. Payments received after 5
p.m. on any day including the Payment Due Date, but that otherwise meet the above
requirements, will be credited as of the next day. Credit for any other payments
may be delayed. Payment amounts in excess of your Total Minimum Payment Due
will be applied to balances with higher Annual Percentage Rates (APRs) before
balances with lower APRs. Your Payment Due Date will be at least 25 days from
your statement Closing Date. We will not charge you any interest on Purchases if
you pay your entire balance by the due date each month.
15. Skip Payment Option. In our discretion, we may offer you the opportunity to not make (“Skip”) a minimum payment during certain designated billing
cycles (“Skip Payment Period”). If you do not make your minimum payment as
provided in this Agreement, during such designated billing cycle, you understand
that we will continue to apply Finance Charges to your Account. Beginning with
the billing cycle following an allowed Skip Payment Period, all other provisions
of this Agreement will apply. We have no obligation to accept your application
for any Skip Payment Period offered, and you authorize us to investigate your
creditworthiness including obtaining consumer credit reports. We may charge you
a skip pay fee for each Skip Payment Period that we may offer to cover our cost
of investigating your qualifications for this extension, including (but not limited

to) the costs associated with researching your creditworthiness. The payoff table
on your monthly statement for the skip payment month may reflect a negative
amortization. 		
16. General Terms Governing Your Payments. To protect you and us, the Credit
Union, in its sole discretion, may place a temporary freeze on all or part of the credit
available to you for new Purchases or Cash Advances, under this Agreement any
time the Credit Union receives a large payment. In such cases, the Credit Union
may freeze your credit limit until payment is actually collected by the Credit Union.
17. Automatic Charges. You may allow others to automatically charge repeat
transactions to your Account. You will be responsible for making new arrangements to make those payments if they are stopped for any reasons, such as: your
Account is closed or suspended, or your Account number changes.
18. Default. Your Account may be in default if any of the following applies: (a)
we do not receive at least the Minimum Payment by the date and time due as
shown on your billing statement; (b) you exceed your credit line; (c) you fail to
comply with the terms of this Agreement or any other agreement with us or one
of our related companies; (d) we obtain information that causes us to believe that
you may be unwilling or unable to pay your debts to us or to others on time; (e)
you file for bankruptcy; or (f) you become incapacitated or die. If your Account
is in default, we may close your Account without notice and require you to pay
your unpaid balance immediately. To the extent permitted by law, if any legal
action is required to enforce any provision of the Disclosure and Agreement or
to recover money owed by you, you agree to pay all costs, including collection
costs, attorney’s fees, court costs, and any other charges incurred while enforcing
our rights under this Agreement.
19. Variable Rates. If you have an APR that varies with changes to the Prime Rate,
we calculate the APR by adding a margin to the highest U.S. Prime Rate published
in the "Money Rates" section of The Wall Street Journal. A "business day" is any
day that is not a weekend or federal holiday. The APR will change if the Prime
Rate changes. If the APR increases, you will pay a higher interest charge and may
pay a higher Minimum Payment. The Prime Rate is simply a pricing index and is
not the lowest interest rate available. If The Wall Street Journal stops publishing
the Prime Rate, we will select a similar reference rate at our discretion.
20. Fees and Charges. Fees and charges that will be added are as shown in the
“Credit Disclosure”.
(a) Annual Membership Fee. If your Account has an annual fee or similar charge,
it will be billed each year or in installments whether or not you use your Account,
and you agree to pay it when billed. The annual fee is non-refundable unless you
notify us that you wish to close your Account within 30 days of our providing
the statement on which the annual fee is billed, and at the same time, you pay
your outstanding balance in full. Your payment of the annual fee does not affect
our rights to close your Account and to limit your right to make transactions on
your Account. If your Account is closed by you or us, we will continue to charge
the annual fee until you pay your outstanding balance in full and terminate your
Account relationship.
(b) Transactions in a Foreign Currency and “Cross-Border’ Transactions.
Currency Conversion Fee: If you effect or authorize a transaction with your
card in a currency other then U.S. Dollars, Visa® or MasterCard® will convert the
charge into a U.S. Dollar amount. The Visa® or MasterCard® currency conversion
procedure includes use of either a government-mandated exchange rate, or a
wholesale exchange rate, as applicable. The exchange rate Visa® or MasterCard®
uses will be a rate in effect on the day the transaction is processed. This rate may
differ from the rate in effect on the date of the purchase or the date the transaction
was posted to your account. A Currency Conversion Fee will be applied to transactions that are converted from foreign currencies to U.S. Dollars. The Currency
Conversion Fee, if it applies to the transaction, will be shown on your statement.
Cross-Border Transaction Fee: In addition, Visa® or MasterCard® charges us a
Cross-Border Assessment on each transaction on all Cross-Border transactions
regardless of whether there is a currency conversion. For purposes of this section,
“Cross-Border Transaction” shall include both (a) transactions initiated in a foreign
country which are subsequently settled in the United States, and (b) transactions
initiated in the United States, but which are ultimately settled in a county outside
of the United States. We will assess these fees to you to reimburse us for the fee
we are required to pay for each of your transactions subject to these terms. The
Cross-Border transaction fee will be shown on your statement.
(c) Late Fee. We may charge a late fee if we do not receive at least the required
Minimum Payment for any billing cycle by the date and time it is due. If the amount

of the late fee is based on a balance, we will use the total Account balance at the
end of the day that the late fee is charged to calculate the fee. This date may be as
early as the due date for the late payment.
(d) Minimum Interest Charge. We may charge no less than the minimum interest
charge if any periodic interest charge is due for a billing cycle.
(e) Overlimit Fee. If you agree to allow us to charge overlimit fees, we may charge
such a fee to the extent allowed by law when your Account goes overlimit. We
may charge this fee even though your balance is over the credit line because of a
transaction we allowed. You have the right to withdraw your consent to our charging the overlimit fee at any time. If you do so, we will stop charging you the fee.
(f) Return Payment Fee. We may charge a return payment fee if your financial
institution does not honor the payment you made to pay amounts you owe under this
Agreement, if we stop payment on a cash advance check or balance transfer check
at your request or we refuse to pay a cash advance check or balance transfer check.
(g) Additional/Replacement Card Fee. We may charge a fee if you request two
or more cards or any special services (for example, obtaining cards on an expedited
basis). Service fees may change from time to time. We will inform you of the fee
in effect prior to when the applicable service is provided.
(h) Transaction Fees for Balance Transfers and Cash Advances. We may charge
you transaction fees for Balance Transfers and Cash Advances. These transactions
fees are Finance Charges and are added to the balance for the applicable category
of Balance Transfers or Cash Advances as of the date of that transactions.
(i) Copies of Documents. We may charge a fee if you request a copy of a billing
statement, sales draft or other record of your Account. However, we will not charge
fees for copies of documents requested for a billing dispute..
21. Illegal Transactions. You warrant and agree that your Credit Card, other access device or any related account will not be used to make or facilitate any illegal
transaction(s) as determined by applicable law, and that any such use, including
any such authorized use, will constitute an event of default under this Agreement.
Certain federal and/or state laws or Visa® or MasterCard® Association Rules may
limit or prohibit certain transactions such as (but not limited to) those coded as
possible gambling transactions. We may decline to accept, process or pay any
transaction that we believe to be illegal or unenforceable (regarding your obligation to pay us or otherwise) under applicable law, or which is otherwise limited or
prohibited, including (but not limited to) any transaction involving or relating to
any gambling activity. Such limitations or prohibitions may affect some otherwise
proper or allowable transactions such as charges incurred at a hotel-casino. You
understand and agree such limitations/prohibitions are not within our control and
that we will not have any liability, responsibility or culpability whatsoever for any
such use by you or any authorized user(s), or for declining to accept, process, or
pay any such transaction. You further agree to indemnify and hold us harmless
from any suits, liability, damages or adverse action of any kind that results directly
or indirectly from any such use of your Account and/or access devices.
22. Returns and Adjustments. Merchants and others who honor the Card may
give credit for returns or adjustments, and they will do so by sending us a credit
which will be posted to your Account. If your credits and payments exceed what you
owe us, the amount will be applied against future Purchases and Cash Advances.
A credit balance does not increase your available credit. If the amount is $1.00 or
more, it will be refunded upon your request or automatically no later than six (6)
months after the posting date.			
23. Merchant Disputes. We are not responsible for the refusal of any merchant
or financial institution to honor the Card. The Credit Union is subject to claims
and defenses (other than tort claims) arising out of goods or services you Purchase
with the Card, if you have made a good faith attempt, but have been unable to
obtain satisfaction from the merchant or service provider, and (a) your Purchase
was made in response to an advertisement we sent or participated in sending to
you, or (b) your Purchase costs more than $50.00 and was made in your state or
within 100 miles of your home.
24. Responsibility and Liability. You may be liable for the unauthorized use
of your Credit Card. If you lose or someone steals your card or any other means
to access your Account, or if you think someone has used your Account without
your permission, immediately inform the Credit Union. You will not be liable
for unauthorized use that occurs after you notify the Credit Union orally or in
writing of the loss, theft, or possible unauthorized use at Customer Service, P.O.
Box 31112, Tampa, FL, 33631-3112, or 1-855-522-2078. If notice is given orally,
you will promptly confirm it in writing. We may require you to provide us certain
information in writing to help us investigate any unauthorized use. Further, you

